                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: I09010001
                                                                                 11           Page 1 of 1




          OIG opened this investigation based upon information provided by our NSF OIG Office of
          Audits, which had determined that a school district' with NSF awards2 had submitted material
          discrepancies, provided misinformation, and had drawn down entire award amounts despite
          having only completed 65-70% of the work on the NSF grants.

          All audit findingslissues on this matter have been resolved. There are no investigative leads or
          further issues to pursue on this matter.
